No. 19-224

In the
Supreme Court of the United States
BRYAN JAMES STROTHER, SFC.,
California Army National Guard,
Petitioner,
v.
DAVID S. BALDWIN, Adjutant General,
State of California Army National Guard;
MIKE MCCORD, Pentagon Comptroller;
DEFENSE FINANCE AND ACCOUNTING
SERVICES;
United States Department of Defense,
Respondents.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit

PETITION FOR REHEARING
DANIEL C. WILLMAN (P55867)
P.O. 606
Pinckney, MI 48169
(248)-231-0705
Attorney for Petitioner

1
Per U.S. Supreme Court rule 44 (2) Petitioner
presents the following arguments for Rehearing, which
are intervening circumstances of a substantial and
controlling effect, and which were not previously
presented.
STATEMENT OF FACTS
SB-481 1
On October 10, 2019, State of California Senate
Bill SB 481 became law.
Respondents had to have been well aware of the
status of SB 481 when they filed their Response 41
days later on November 20, 2019.
SB 481 removed the Office of the state’s
National Guard Inspector General from under the
command of the Office of the Adjutant General of the
California National Guard. The Inspector General
now reports to the Governor (and others in addition to
several other changes, Addendum 1a-13a).
The moving force (Bryan County v. Brown, 520
U.S. 397 (1997)) behind SB 481 was based on years of
allegations that senior command officials of the
California National Guard had abandoned their Oath
of Office and engaged in discriminatory retaliation
against those who reported possible wrongdoing.2
1

http://leginfo.legislature.ca.gov/faces/billTextClient.xhtml?bill_i
d=201920200SB481
2

https://www.stripes.com/news/a-culture-of-fear-a-look-at-the-cali
fornia-national-guard-allegations-spurring-lawmakers-to-consid
er-new-legislation-1.578116
“ [I]t’s necessary to remove the IG from under Adjutant
General Maj. Gen. David Baldwin’s oversight because guardsmen
fear retaliation if they report wrongdoing.

2
I.
RESPONDENT BALDWIN IS A
STATE ACTOR.
Since October 10, 2019, the administrative
workings of the California National Guard are now
subject to direct oversight by the Governor and
Legislative branch of the State of California.
The administrative actions of Adjutant General
Respondent Baldwin being a State and not a federal
employee are at issue (Perpich v. U. S. Dept of Defense,
880 F.2d 11 (8th Cir.1989)).
If administrative oversight of the California
National Guard can be done on the State level then,
under the facts of this matter, Respondent Baldwin is
indeed a State Actor, as Petitioner has always
asserted. All of the allegations giving rise to SB 481
occurred on Respondent Baldwin’s watch and were
administrative in nature and non-related to combat
readiness.
Whether the Adjutant General of a State
National Guard is a federal or state employee is before
the Court on new grounds and is a matter that needs
clarification and deserves to be fully briefed. The issue
goes directly to what level of immunity could be
invoked by an Adjutant General and what type of
claims could be brought against the office of an
Adjutant General (Will v. Michigan Department of

Often, they say, that retaliation comes in the form of an
investigation into the complainant, not the alleged wrongdoer.
“Each retaliation situation — they all fit a pattern,”“

3
State Police, 491 U.S. 58, 71 (1989) and the National
Guard of any state.
II.
THERE SHOULD BE A CIVILIAN
ACTIVITIES EXCEPTION TO THE
FERES DOCTRINE .
Since National Guard non-tactical military
decisions are now subject to State administrative
oversight, is the Feres doctrine (Feres v. U.S., 340 U.S.
135 (1950)) even applicable to the National Guard and
its members? Based on the above, at the minimal,
there should be a civilian activities exception to the
Feres doctrine. Jackson v. Tate, 648 F.3d 729,733 (9th
Cir. 2011).
If a civilian activities exception component does
apply, should such an exception not also apply to all
servicemembers? And what falls within that civilian
exception activities category?
If a civilian activities exception was allowed for
National Guard members then it would only seem just
to give such protections to full-time servicemembers.
Or because of their status as full-time servicemembers,
are they not entitled to the same Constitutional
protections as Guard members?
The above issues should be fully briefed, argued
and decided by this Court in a formal Opinion.

4
III.
N EWLY OFFERED BONUSES IN
CURRENT ENLISTMENT AND REE N L ISTM EN T
C O N TRAC TS
DESERVE TO BE RECOGNIZED BY
THIS COURT FOR WHAT THEY
ARE, VESTED ENTITLEMENTS.
If a civilian activities exception to the Feres
doctrine is recognized, as it should be, then that
standard should be applied to the decision to sign an
enlistment or re-enlistment contract, which is a
civilian act. (“[R]e-enlistment . . . falls outside the
scope of Feres’ “incident to service” standard,” Jackson
v. Tate supra 735, (9th Cir. 2011)).
U.S. servicemembers are deployed around the
world in more countries than ever before and in hot
zones the American public did not even know about
until recently (citations omitted).
The current ad3 (as of this filing) on the U.S.
Army website states:
After earning your place on the U.S.
Army t eam, you’ll have many
opportunities to earn bonuses in addition
to Basic Pay and Drill Pay.
Respondents have consistently asserted that

3

https://www.goarmy.com/benefits/money/bonuses-earning-extramoney.html?iom=AFTU-20-980_N_PSEA_71700000059782365_
700000001989777_43700049511633122_58700005434475538_%
2Bmilitary+%2Bbonus&gclid=EAIaIQobChMI09vk-bOM5wIVE
r7ACh3dCwPMEAAYASAAEgKmz_D_BwE&gclsrc=aw.ds

5
bonus pay should be treated as regular pay, yet the
above clearly proves that the U.S. Department of
Defense (DoD) does not consider a bonus regular pay
U.S. v. Larionoff, 431 U.S. 864 (1977) Costello v. U.S.,
587 F.2d 424, 427 (9th Cir. 1978). Also see Bell v. U.S.,
366 U.S. 393, 401 (1961). Furthermore, the same
website link notes at the bottom right hand corner in
small print: Requirements for this program may vary.
With constant global deployments, zero exit
strategy and a constant push to sign4 and retain
troops, U.S. servicemembers deserve to know with
certainty that, if they sign a contract with the United
States of America Department of Defense or one of its
branches, that the contract says what it means and
means what it says (emphasis).
If U.S. servicemembers honor and fulfill their
obligations, they are owed the legitimate expectation
of specific performance that the Country they serve
will, in fact, also honor its commitments to them.
Is the signing of an enlistment contract purely
unilateral and only binding on the soldier? Are the
Oath of Office (given by officers) and the Oath of
Enlistment (given by enlisted personnel) purely
ceremonial? Furthermore, and of more importance, if
the obligations of the United States to an enlistment
contract are unbinding and only ceremonial then U.S.
servicemembers are in fact entitled to an Opinion from
4

Just two examples of countless enlistment ads.
https://www.military.com/daily-news/2019/11/07/theres-still-tim
e-snag-hefty-army-bonus-joining-infantry.html
https://www.military.com/daily-news/2019/08/27/army-rolls-outnew-reenlistment-bonus-worth-81000.html

6
this Court stating that is the case.
While it would be a bitter pill to swallow, such
an Opinion would confirm the brutal truth, that DoD
promises in enlistment contracts are nothing but a
charade of advertisement puffing, a classic bait and
switch punctuated by false and broken promises.
If no other relief is granted U.S. servicemembers
are at least owed the above requested measure of
direct honesty which only this Court can deliver.
CONCLUSION
The Declaration
Paragraph 30:

of

Independence

states

In every stage of these oppressions we
have Petitioned for Redress in the most
humble Terms. Our repeated Petitions
have been answered by repeated injury.
Petitioner humbly asserts, since American
servicemembers can be sent anywhere in the world
(and with conflict seemingly at every doorstep), they
have earned and deserve the simple repeated request
for peace of mind knowing that any contract they sign
with the DoD (which could place them in harm’s way),
should be honored.
Even if this matter were never remanded back
to the District Court real injury has in fact occurred
(U.S. Const. art. III, § 2, cl. 1,.) and declaratory relief
is warranted. Ex Parte Young, 209 U.S. 123, 124
(1908). On behalf of his sisters and brothers, Petitioner
respectfully asserts servicemembers deserve that the
above issues should be fully briefed and argued before
this Court in the case at hand.

7
REQUEST FOR RELIEF
For all of the above the Court should reconsider
whether:
1.

2.
3.

Bonuses in enlistment and reenlistment contracts are vested and
accrued entitlements.
There needs to be a civilian activity
exception to the Feres doctrine.
Respondent Baldwin is in fact a State, not a
Federal employee.

Dated: January 31, 2020
Respectfully submitted,
s/Daniel C. Willman
Daniel C. Willman
Attorney for Petitioner

CERTIFICATE OF COUNSEL
Per Supreme Court Rule 44 (1) I, Daniel C.
Willman, counsel of record for Petitioner, do affirm this
Petition for Rehearing is presented in good faith, not
for delay and is limited to the grounds mandated in
section (2) of the above rule.
Dated: January 31, 2020
Respectfully submitted,
s/Daniel C. Willman
Daniel C. Willman
Attorney for Petitioner

1a
APPENDIX
Senate Bill No. 481- CHAPTER 704
An act to amend Sections 55 and 56 of, and to add
Section 56.1 to, the Military and Veterans Code,
relating to the state military.
[ Approved by Governor October 09, 2019. Filed with
Secretary of State October 09, 2019. ]
LEGISLATIVE COUNSEL'S DIGEST
SB 481, Umberg. State military: inspector general.
Existing law establishes the California Military
Department Inspector General to investigate alleged
violations of law or gross mismanagement or waste of
funds. Existing law establishes qualifications for a
person serving in the position of inspector general,
including, among other things, that the inspector
general be subordinate to the Adjutant General.
This bill would instead require that the
inspector general be an advisor to the Governor and
responsive to the Adjutant General.
Existing law, either at the discretion of the inspector
general or upon request by the Governor, a Member of
the Legislature, any member of the Military
Department, or any member of the public, authorizes
the inspector general to investigate any complaint or
allegation regarding specified issues.
This bill would instead require the inspector general to
expeditiously investigate those complaints. The bill
would also require the inspector general to notify the
requesting party of the results of the investigation. The
bill would require specified allegations presented to the
inspector general to be reported to either the Governor
or specified federal inspectors general, and the
Adjutant General, as specified.
Existing
law,
the
California Military
Whistleblower Protection Act, prohibits a person from
restricting a member of the Military Department from

2a
making specified communications to a Member of
Congress, the Governor, a Member of the Legislature,
or any state or federal inspector general, or from
taking, or threatening to take, unfavorable personnel
actions, or withholding, or threatening to withhold,
favorable personnel actions, as a reprisal against a
member of the Military Department for making
specified communications. Existing law requires the
inspector general to, after the completion of an
investigation into an allegation relating to the act,
submit a report on the results of the investigation to
the Adjutant General and a copy of the report on the
results of the investigation to the member of the
department who made the allegation.
This bill would require the inspector general to provide
an interim response to allegations of actions prohibited
by the act when the final response will be delayed, as
specified.
Existing law requires the inspector general, if
the inspector general is not outside the immediate
chain of command of both the member submitting the
allegation and the individual or individuals alleged to
have taken an action prohibited by the California
Military Whistleblower Protection Act, to refer the
allegation to the Chief of the National Guard Bureau
and the Governor.
This bill would instead require the inspector
general to refer all allegations of actions prohibited by
the act to the Chief of the National Guard Bureau and
the Governor.
The bill would additionally require the Governor
or Adjutant General to take disciplinary actions
against any member of the department who
intentionally engages in acts of reprisal, retaliation,
threats, coercion, or similar acts, as specified, against
a person who reported improper activities.

3a
THE PEOPLE OF THE STATE OF CALIFORNIA DO
ENACT AS FOLLOWS:
SECTION 1. Section 55 of the Military and Veterans
Code is amended to read:
55. (a) A person serving in the position of inspector
general shall satisfy all of the following requirements:
(1) Be appointed by the Governor, with consideration
of the recommendation of the Adjutant General and
notification to the Senate Committee on Rules, and
shall serve a four-year term from the effective date of
appointment. The inspector general may not be
removed from office during that term, except for good
cause. An inspector general may not serve more than
two consecutive terms.
(2) Meet the same qualifications established in this
code for the Assistant Adjutant General.
(3) Be an advisor to the Governor and responsive to the
Adjutant General and serve on state active duty at the
grade of O-6 or higher.
(b) (1) The inspector general may not serve as the
Adjutant General or the Assistant Adjutant General
for four years from the date of leaving the position of
inspector general.
(2) A commissioned officer on state active duty
appointed to the position of inspector general who,
immediately prior to that duty, held a permanent state
active duty position shall remain on state active duty
upon vacating the inspector general position.
(3) The inspector general, as soon as able after their
appointment, shall attend the Department of Defense
Inspector General School.
(c) The department shall, from the amount annually
appropriated to it for purposes of this office, continue
to fund the position of inspector general.
(d) The inspector general shall have access to all
employees and documents of the department.

4a
(e) The inspector general may receive communications
from any person, including, but not limited to, any
member of the department.
(f) The inspector general shall, at a minimum, continue
to perform the functions of inspections, assistance,
investigations, and teaching and training. The
functions of the inspector general shall be performed in
accordance with applicable service laws, rules, and
regulations governing federal inspectors general.
(g) The inspector general shall continue to maintain a
toll-free public telephone number and an internet
website to receive complaints and allegations,
including, but not limited to, those described in
subdivision (h) or the California Military
Whistleblower Protection Act. The inspector general
shall continue to post the telephone number and
internet website in clear view at every California
National Guard armory, flight facility, airfield, or
installation.
(h) (1) At the discretion of the inspector general or the
Adjutant General, or upon a written request by the
Governor, a Member of the Legislature, any member of
the department, or any member of the public, the
inspector general shall, in compliance with Army
Regulation 20-1 or any subsequent regulation
governing activities and procedures of the inspector
general, expeditiously investigate any complaint or
allegation regarding the following:
(A) A violation of law, including, but not limited to,
regulations, the Uniform Code of Military Justice, and
any law prohibiting sexual harassment or unlawful
discrimination.
(B) Gross mismanagement, a gross waste of funds, an
abuse of authority, or a substantial and specified
danger to the public health or safety.
(2) (A) For all written requests submitted by a Member

5a
of the Legislature, the inspector general shall respond
in writing with the inspector general’s findings. The
response shall contain only that information that may
be lawfully disclosed, and, if a complaint or allegation
is at issue, the response shall contain, at a minimum,
information regarding whether the complaint or
allegation was unfounded or sustained.
(B) If the inspector general conducts an investigation
at the request of a Member of the Legislature, the
inspector general shall submit to that member a report
of the inspector general’s findings of that investigation.
The report shall contain only information that may be
lawfully disclosed, and shall contain, at a minimum,
information regarding whether the complaint or
allegations were unfounded or sustained.
(3) The inspector general shall notify a person who
submitted a request for investigation pursuant to
paragraph (1) of the results of the investigation, with
respect to those issues and allegations directly
pertaining to, or made by, the person.
(4) (A) A request described in paragraph (1) is not a
public record and is not subject to disclosure under the
California Public Records Act set forth in Chapter 3.5
(commencing with Section 6250) of Division 7 of Title
1 of the Government Code.
(B) The inspector general shall not disclose to any
person or entity the identity of a person making a
written request or an allegation or complaint described
in paragraph (1), unless the person making the
request, allegation, or complaint has consented to the
disclosure in writing.
(5) (A) When deemed appropriate by the inspector
general, the inspector general may refer to the Chief of
the National Guard Bureau any complaints or
allegations described in paragraph (1), any violations
of the Uniform Code of Military Justice, or any

6a
violations of any other state or federal law.
(B) When deemed appropriate by the inspector general,
the inspector general may refer to the State Auditor
any complaints or allegations described in
subparagraph (B) of paragraph (1) or any violation of
state or federal law.
(i) If the inspector general receives, or becomes aware
of, an allegation, complaint, or misconduct regarding
the Adjutant General or the Assistant Adjutant
General, the inspector general shall immediately refer
the matter to the Chief of the National Guard Bureau
and the Governor for review. The inspector general, by
order of the Governor, shall conduct an investigation
regarding the allegations concerning the Adjutant
General or the Assistant Adjutant General
concurrently with any federal investigation where
appropriate. The inspector general shall report the
findings to the Governor under this subdivision.
(j) If the inspector general receives, or becomes aware
of, an allegation, complaint, or instance of misconduct
regarding an inspector general, the inspector general
shall immediately refer the allegation, by rapid and
confidential means, to the Governor and the next
higher echelon inspector general for appropriate action
within 10 working days after receipt.
(k) Any allegation presented to the inspector general
against a person recognized by the federal government
as grade E-8 or E-9, or against any officer recognized
by the federal government as a rank of major through
colonel, that resulted in the initiation of an inspector
general investigation or investigative inquiry or a
command-directed action, such as an investigation
pursuant to Army Regulation 15-6, commander’s
inquiry, or referral to the United States Army
Criminal Investigation Command, shall be reported to
the inspector general of the Department of the Army or

7a
the inspector general of the Department of the Air
Force, as appropriate, and the Adjutant General within
10 working days after receipt.
(l) Any allegation presented to the inspector general
against a person not recognized by the federal
government as grade E-8, E-9, or against any officer
not recognized by the federal government as a rank of
major through colonel, that resulted in the initiation of
an inspector general investigation or investigative
inquiry or a command-directed action, such as an
investigation pursuant to Army Regulation 15-6,
commander’s inquiry, or referral to the United States
Army Criminal Investigation Command, shall be
reported to the Governor and the Adjutant General
within 10 working days after receipt.
(m) Any allegation presented to the inspector general
against general officers or brigadier general selectees
shall be reported, by rapid and confidential means, to
the Governor and the Adjutant General within 10
working days after receipt.
(n) (1) (A) The inspector general shall, on or before July
1, 2013, and on or before July 1 each year thereafter,
submit a report to the Governor, the Legislature, the
Senate Committee on Veterans Affairs, and the
Assembly Committee on Veterans Affairs. The report
shall include, but not be limited to, a description of
significant problems discovered by the office and a
summary of investigations conducted by the office
during the previous year. Upon submitting the report
to the Governor, the Legislature, the Senate
Committee on Veterans Affairs, and the Assembly
Committee on Veterans Affairs the report shall be
made available to the public and posted on the office’s
internet website.
(B) A report to be submitted pursuant to subparagraph
(A) shall be submitted in compliance with Section 9795

8a
of the Government Code.
(2) Upon the completion of an investigation conducted
by the inspector general pursuant to paragraph (1) of
subdivision (h) or Section 56, the inspector general
shall also prepare and issue on a quarterly basis a
public report that includes all investigations completed
in the previous quarter. The inspector general shall
submit a copy of the quarterly report to the
Legislature, the Senate Committee on Veterans
Affairs, and the Assembly Committee on Veterans
Affairs. The inspector general shall have the discretion
to redact or otherwise protect the names of individuals,
specific locations, or other facts that, if not redacted,
might hinder prosecution under state or federal law or
the Uniform Code of Military Justice related to the
investigation, or where disclosure of the information is
otherwise prohibited by law, and to decline to produce
any of the underlying materials. In a case where
allegations were deemed to be unfounded, all
applicable identifying information shall be redacted.
Each quarterly report shall be made available to the
public and posted on the office’s internet website.
(o) For purposes of this section, all of the following
shall apply:
(1) “Department” means the Military Department.
(2) “Inspector general” means the California Military
Department Inspector General.
(3) “Member of the department” means the Adjutant
General, any person under the command of the
Adjutant General, any person employed by the
department, including, but not limited to, any service
member or employee of the office of the Adjutant
General, the California National Guard, the State
Military Reserve, the California Cadet Corps, or the
Naval Militia, any person on state active duty, any
person with a state commission, or any civil service or

9a
part-time employee of the department.
(4) “Office” means the Office of the California Military
Department Inspector General.
SEC. 2. Section 56 of the Military and Veterans Code
is amended to read:
56. (a) This section shall be known, and may be cited,
as the “California Military Whistleblower Protection
Act.”
(b) Notwithstanding any other law, a person shall not
do any of the following:
(1) (A) Restrict a member of the department from
communicating with a Member of Congress, the
Governor, a Member of the Legislature, or any state or
federal inspector general.
(B) Subparagraph (A) shall not apply to a
communication that is unlawful.
(2) Take, or threaten to take, an unfavorable personnel
action, or withhold, or threaten to withhold, a
favorable personnel action, as a reprisal against a
member of the department for making a
communication to any person, including, but not
limited to, any of the following:
(A) A Member of Congress.
(B) The Governor.
(C) A Member of the Legislature.
(D) The inspector general.
(E) The State Auditor.
(F) A federal inspector general or any other inspector
general appointed under the Inspector General Act of
1978.
(G) Any member of a Department of Defense audit,
inspection, investigation, or law enforcement
organization.
(H) Any local, state, or federal law enforcement agency.
(I) Any person or organization in the chain of command
of the department.

10a
(J) Any other person or organization designated
pursuant to regulation or any other established
administrative procedures for such communications.
(c) Notwithstanding any other law, if a member of the
department submits to an inspector general an
allegation that a personnel action prohibited by
paragraph (2) of subdivision (b) has been taken or has
been threatened to be taken against the member of the
department, the inspector general shall take action as
provided by subdivision (d).
(d) An inspector general receiving an allegation
pursuant to subdivision (c) shall do all of the following:
(1) Expeditiously determine whether there is sufficient
evidence, in accordance with federal regulations
governing federal inspectors general, to warrant an
investigation of the allegation.
(2) Conduct a separate investigation of the information
that the member making the allegation believes
constitutes evidence of wrongdoing under both of the
following circumstances:
(A) There has not been a previous investigation.
(B) There has been a previous investigation but the
inspector general determines that the previous
investigation was biased or otherwise inadequate.
(3) Upon determining that an investigation of an
allegation is warranted, expeditiously investigate the
allegation.
(e) The inspector general shall refer all allegations
regarding personnel actions prohibited by paragraph
(2) of subdivision (b) to the Chief of the National Guard
Bureau and the Governor.
(f) (1) After completion of an investigation the inspector
general shall submit a report on the results of the
investigation to the Adjutant General and a copy of the
report on the results of the investigation to the
member of the department who made the allegation.

11a
The report shall be transmitted to the Adjutant
General, and the copy of the report shall be
transmitted to the member, not later than 30 days
after the completion of the investigation.
(2) The report on the results of the investigation
transmitted to the Adjutant General shall contain a
thorough review of the facts and circumstances
relevant to the allegation and the complaint or
disclosure and shall include documents acquired
during the course of the investigation, including
summaries of interviews conducted. The report may
include a recommendation as to the disposition of the
complaint.
(3) Except for that information that is not required to
be disclosed under the California Public Records Act
(Chapter 3.5 (commencing with Section 6250) of
Division 7 of Title 1 of the Government Code), in the
copy of the report transmitted to the member of the
department the inspector general shall ensure the
maximum disclosure of information that may be
lawfully disclosed. The copy of the report need not,
however, include summaries of interviews conducted,
or any document acquired, during the course of the
investigation. These items shall be transmitted to the
member of the department, if the member requests the
items, with the copy of the report or after the
transmittal to the member of the copy of the report,
regardless of whether the request for those items is
made before or after the copy of the report is
transmitted to the member.
(4) The inspector general shall provide an interim
response to allegations when the final response will be
significantly delayed due to operational demands,
complexity of the case, or the receipt of additional
information. The inspector general shall provide
interim responses every 60 days until the matter is

12a
resolved and the case closed.
(5) If, in the course of an investigation of an allegation
under this section, the inspector general determines
that it is not possible to submit the report required by
this subdivision within 60 days after the date of receipt
of the allegation being investigated, the inspector
general shall provide to the Adjutant General and to
the member making the allegation a notice of all of the
following:
(A) The reasons why the report may not be submitted
within that time.
(B) When the report will be submitted.
(g) Nothing in this article is intended to supersede the
rights, benefits, processes, and procedures already
afforded to members of the dept. under existing law.
(h) For purposes of this section, all of the following
shall apply:
(1) A “communication” means any communication or
report in which a member of the department complains
of, or discloses information that the member of the
department reasonably believes constitutes evidence
of, any of the following:
(A) A violation of law, including, but not limited to,
regulations, the Uniform Code of Military Justice, and
any law prohibiting sexual harassment or unlawful
discrimination.
(B) Gross mismanagement, a gross waste of funds, an
abuse of authority, or a substantial and specified
danger to the public health or safety.
(2) “Department” means the Military Department.
(3) “Inspector general” means the California Military
Department Inspector General.
(4) “Member of the department” has the same meaning
as defined in Section 55.
(5) “Office” means the Office of the California Military
Department Inspector General.

13a
SEC. 3. Section 56.1 is added to the Military and
Veterans Code, to read:
56.1. (a) A member of the department who
intentionally engages in acts of reprisal, retaliation,
threats, coercion, or similar acts against any other
member or former member of the department, or
employee of any department, board, or authority, for
having disclosed what the member or former member
of the department or employee in good faith believed to
be improper activities in the Military Department shall
be disciplined by the Governor or the Adjutant
General, or by adverse action as provided in Article 1
(commencing with Section 19570) of Chapter 7 of Part
2 of Division 5 of Title 2 of the Government Code, if
applicable. If no adverse action is taken by the
appointing power for a civil service or other state
employee, the State Personnel Board shall begin
procedures as if charges were filed pursuant to Section
19583.5 of the Government Code.
(b) Persons subject to the Uniform Code of Military
Justice (UCMJ) who violate Section 56 shall
additionally be subject to punishment pursuant to
Article 92 of the UCMJ, and subject to adverse
administrative action as authorized by state law or
federal law.
(c) Any member of the department who violates the
prohibitions defined in Section 56 shall be subject to
disciplinary action or criminal prosecution as
authorized by state or federal law.
(d) . . .[T]he following definitions apply:
(1) “Department” means the Military Department.
(2) “Employee” has the same meaning as defined in
Section 8547.2 of the Government Code.
(3) “Improper activities” means the same thing as
“improper governmental activity” under Section 8547.2
of the Government Code.

